  UNITED STATES DEPARTMENT OF AGRICULTURE

         OFFICE OF INSPECTOR GENERAL



         STATEMENT OF PHYLLIS K. FONG

                 Inspector General



                     Before the

            COMMITTEE ON AGRICULTURE
SUBCOMMITTEE ON RURAL DEVELOPMENT, BIOTECHNOLOGY,
     SPECIALTY CROPS, AND FOREIGN AGRICULTURE

           U.S. HOUSE OF REPRESENTATIVES



                   June 10, 2009
                                                                                       1


Good morning, Chairman McIntyre, Ranking Member Conaway, and Members of the
Subcommittee. Thank you for inviting me to testify about our work at the U.S.
Department of Agriculture (USDA) Office of Inspector General (OIG) regarding
oversight of the American Recovery and Reinvestment Act of 2009 (Recovery Act) 1
funds provided to USDA’s Rural Development programs. USDA OIG is directly
responsible for continuous oversight of USDA’s vast programs and operations; in
fiscal year 2008, the Department had expenditures of approximately $95 billion and
approximately 90,000 employees. USDA alone received $28 billion in Recovery Act
funding for a broad array of Department programs and operations, ranging from rural
development programs, nutrition assistance, and watershed activities, to wildfire
management and broadband activities. Nine separate USDA programs or accounts
received at least $300 million in supplemental funding.


I will begin my testimony with an overview of our plan to conduct oversight of USDA
Recovery Act activities and report our results. I will then summarize the results of
several specific audits we have completed relating to Rural Development’s Recovery
Act programs as well as work that is in process and planned.


     I.    USDA OIG’s Oversight Plan for USDA’s Recovery Act Activities


We have developed a number of actions to enable OIG to provide timely and
effective oversight of USDA’s Recovery Act expenditures. In addition to the efforts
described below, we conducted immediate outreach to the Department—including
meetings with the top officials of the relevant USDA agencies—to advise them of
OIG’s plans and to solicit their input on where our efforts would be most effective.
We are providing them with information on oversight “best practices” as they come to
our attention. For example, we provided USDA agencies with a recently issued
guide to grant oversight and best practices for combating grant fraud and with
information related to a fraud scheme pertaining to Recovery Act funds.



1
    H.R. 1, Public Law 111-5, February 17, 2009.
                                                                                          2


Summarized below are the major elements of our oversight plan, organized by audit
and investigative activity.


       A. Recovery Act Oversight at USDA: Audits


We are focusing on key elements such as whether USDA agency officials have
established proper internal control procedures and compliance operations, as well as
reviewing whether participants in Recovery Act-related programs meet eligibility
requirements. OIG’s audit work will be conducted in multiple phases based on
USDA’s Recovery Act activities and expenditures.


Phase 1:
   1) In recent years, OIG has made audit recommendations on virtually every
       USDA program that will receive Recovery Act funding. We assessed the
       extent to which USDA agencies implemented our recommendations to
       determine whether program weaknesses have been corrected. In cases
       where OIG’s recommendations were not fully implemented, we worked with
       agency officials to identify the corrective action necessary to ensure effective
       controls on USDA’s Recovery Act expenditures. (The results of this work for
       Rural Development are described in subsequent sections of this testimony.)


   2) We expanded the scope of audits that were already in process or planned for
       USDA programs receiving Recovery Act funds. Among them are reviews of
       the Farm Service Agency’s oversight of farm loans; Rural Development
       programs for single family housing, business and industry loans, and water
       and waste disposal programs; the Forest Service’s wildland firefighting
       program; and the Food and Nutrition Service’s Supplemental Nutrition
       Assistance Program (SNAP).

   3) We are expediting the completion and release of several audits related to
       Recovery Act-funded programs, including Rural Development’s broadband
                                                                                       3


       program and the rehabilitation of flood control dams by the Natural Resource
       Conservation Service. (The results of our work for broadband are described
       in subsequent sections of this testimony.)

Phase 2:
   1) We are designing new audits to specifically review various aspects of the
       programs receiving Recovery Act funding.


   2) We are reviewing each USDA agency’s Recovery Program Plan and then will
       develop targeted oversight initiatives.

   3) Our newly formed Data Analysis and Data Mining group will begin its
       Recovery Act-related oversight by analyzing data pertaining to Rural
       Development’s Single Family Housing Direct Loan Program.

Phase 3:
   We will evaluate the determinations USDA agencies make about the
   effectiveness of their Recovery Act activities by analyzing their performance
   measures with respect to outcomes.


       B. Recovery Act Oversight at USDA: Investigations


Our Recovery Act investigative efforts will emphasize preventing and identifying
fraud, initiating timely investigations when potential criminal activity occurs, and
responding to whistleblower reprisal complaints from non-Federal employees. OIG
will work with U.S. Attorneys and States Attorney General Offices to prosecute
violators and seek asset forfeiture when appropriate.


Phase 1:
   1) OIG agents are increasing the fraud awareness briefings they conduct for
       agency personnel and will be distributing information to program stakeholders
                                                                                       4


     on our investigative capabilities and the avenues available for citizens to
     report Recovery Act-related fraud.


  2) Our National Computer Forensic Division will be assisting in fraud
     identification related to USDA’s Recovery Act programs, such as matching our
     audit data mining results against external data bases.

  3) We are actively participating on national and regional task forces such as the
     Contract and Procurement Fraud Task Forces and the Mortgage Fraud Task
     Forces. These organizations increase OIG’s ability to identify fraud and
     partner with other Federal/State investigators and prosecutors.

  4) OIG is continuing close liaison with USDA agencies to identify fraudulent
     activities and coordinate with their compliance and investigations units for joint
     investigations, as appropriate.

  5) We will use OIG’s Hotline as a source of information on potential criminal
     activity affecting USDA’s recovery activities. Each month, our Hotline staff
     receives approximately 275 contacts and performs an initial assessment of
     the complaints and allegations to determine the level of OIG investigative
     inquiry that is warranted. OIG is separately tracking complaints regarding
     Recovery Act funding and related whistleblower reprisal complaints.

Phase 2:
  1) After assessing the results of the initiatives described above (and information
     revealed by our Recovery Act-related audit work), we will open criminal
     investigations, as appropriate.


  2) We will work to ensure that entities involved in criminal or serious misconduct
     are held accountable via criminal and/or civil prosecution, asset forfeiture,
     agency fines, and administrative sanctions (suspension/debarments, etc.).
                                                                                       5


       C. Reporting OIG’s Recovery Act Activities and Results


We recognize the importance of timely reporting by IGs about Recovery Act-related
activities. Fulfilling our reporting obligations under the Recovery Act will assist
agency heads and congressional oversight committees in carrying out their
responsibilities. We will therefore alert USDA officials to program integrity and
efficiency problems as quickly as possible to expedite corrective actions. We will
incorporate the Recovery Act’s new requirements regarding whistleblower reprisal
complaints into our semi-annual reports to Congress. As provided by Office of
Management and Budget (OMB) guidance, OIG is separately reporting our use of
Recovery Act monies and other funds for Recovery Act-related activities in our
reports and “Recovery.gov” submissions.


We have instituted a new process to timely issue audit reports related to Recovery
Act funds. As we perform our audits, if we identify an issue that could/should be
addressed quickly by program officials to prevent fraud, waste, or mismanagement,
we will produce a report recommending immediate action. These quick turn-around
reports can then be rolled up into consolidated reports. (Examples of these reports
are detailed in subsequent sections of this testimony.)


 II.   Recovery Act-Related Audit and Investigative Work for Rural
       Development


Rural Development has significant responsibilities related to the Recovery Act. The
agency has been charged with administering $4.36 billion in recovery funds, that
when implemented will deliver more than $20 billion in loans and grants to improve
economic opportunity and the quality of life in rural America. Loans and grants will
be awarded to build high-speed broadband infrastructure; construct or improve rural
water and waste disposal systems; finance homes for rural families; build critical
community facilities, such as rural hospitals, community centers, and public safety
facilities; and fund new rural business ventures.
                                                                                                             6



        A. Broadband

In March 2009, we released our report 2 on the broadband loan and loan guarantee
program. This work was initiated at the request of Congress to determine if the Rural
Utilities Service (RUS) had made sufficient corrective actions in response to our
September 2005 report 3 and to answer specific questions posed by the House and
Senate Committees on Appropriations.


We found that RUS had not fully implemented corrective action in response to our
September 2005 audit report. RUS had written a proposed change to the regulation
which would have addressed some of our recommendations; however, they did not
implement the rule, choosing to wait for passage of the Food, Conservation, and
Energy Act of 2008 (2008 Farm Bill) to ensure that their proposed rule met the new
requirements. During the period prior to enactment of the 2008 Farm Bill, RUS
continued to make loans to providers in areas with preexisting service, sometimes in
close proximity to large urban areas.


In its response to our report, the agency agreed to take corrective actions. However,
we remain concerned with the current direction of the broadband program,
particularly as it receives greater funding under the Recovery Act. As structured,
RUS’ broadband program may not meet the Recovery Act’s objective of awarding
funds to projects that provide service to the greatest number of rural residents who
do not have access to broadband service.


Given our concerns, we are coordinating with both the Government Accountability
Office (GAO) and the Department of Commerce (DOC) OIG. In March and April
2009, GAO initiated two audits on RUS’ broadband program. DOC-OIG is currently
conducting audit work to oversee the $4.7 billion that the National
2
  Rural Utilities Service’s Broadband Loan and Loan Guarantee Program, Audit Report No. 09601‐8‐Te, issued
March 31, 2009.
3
  Rural Utilities Service’s Broadband Grant and Loan Programs, Audit Report No. 09601-4-Te, issued
September 30, 2005.
                                                                                                       7


Telecommunications and Information Administration has been awarded to deploy
broadband using Recovery Act funds.


        B. Prior Audit Recommendations


In April 2009, we reported on our initial Recovery Act oversight project, which was to
review audit recommendations that could impact internal controls over Recovery Act
activities for each agency. 4 We identified recommendations where Rural
Development had not implemented the agreed-upon corrective actions within the
mandatory one-year timeframe. We then determined which of these
recommendations, if left unresolved or not mitigated, would introduce a significant
risk of inefficient or improper use of Recovery Act funding. For Rural Development,
we identified 17 audit recommendations that met these criteria involving
approximately $10 billion of Recovery Act funds.


In response to our report, Rural Development itemized the actions it was taking to
address the risks associated with the unimplemented recommendations related to
the business and industry guaranteed loan program, the single family housing direct
loan program, and the broadband grant and loan program. For example, the agency
explained that corrective action for 8 of the 11 recommendations related to the
business and industry guaranteed loan program is affected by the publication of the
new guaranteed loan regulation. The agency also responded that, until the new
regulation is published, it has taken the steps necessary to minimize the risk of loss
to the program, including annual training to State offices and lenders, monitoring to
ensure compliance, and periodic notices to provide instruction and clarification.


For the five recommendations related to the broadband grant and loan programs,
Rural Development states that it is implementing the evaluations, oversight, and
monitoring systems and procedures required for Recovery Act programs under OMB


4
 Existing Risk to Rural Development’s Economic Recovery Program, Audit Report No. 85703-1-HQ, issued
April 3, 2009.
                                                                                         8


guidance. Rural Development has said it plans to have these systems and
procedures in place before Recovery Act funds are obligated.


       C. Single Family Housing Guaranteed Loan Program


The Rural Housing Service is responsible for distributing Recovery Act funds through
the Single Family Housing Guaranteed Loan Program. As of June 3, 2009, Rural
Development had obligated over $4.3 billion to guarantee over 36,000 loans. Our
role, as mandated by the Recovery Act, is to oversee agency activities and to ensure
funds are expended in a manner that minimizes the risk of improper use. As of
May 22, 2009, we have issued four reports related to our oversight activities of rural
housing. These reports address: (1) internal control weaknesses related to the
agency’s Guaranteed Underwriting System (GUS); (2) waivers of the agency’s debt
ratio policy for borrowers participating in the program; (3) lenders’ use of
independent mortgage brokers (“brokers”) to originate loans that are guaranteed by
Rural Development; and (4) procedures used by agency field staff when reviewing
and approving applications for loan guarantees. These issues will be compiled into a
final report at the conclusion of our audit. During this initial phase, we did not
perform testing to verify lender compliance with agency policies and procedures. As
a result, we have no conclusions on the overall extent of abuse that is, or may be,
occurring in the program. Our concern is that substandard loan applications could
be submitted to and approved by Rural Development.


       1) GUS Internal Control Weakness


          In January 2007, Rural Development implemented GUS, an automated
          underwriting system, to streamline the process used by lenders to submit
          loan guarantee applications. According to agency national officials,
          approximately 40 percent of all applications for loan guarantees involving
          Recovery Act funds have been processed through GUS, compared to a
          historical average of 25 percent. The internal control weakness we
                                                                                  9


   identified relates to the documentation requirements for lenders who
   submit loan guarantee applications through GUS. We found lenders do
   not submit documentation that supports the eligibility of borrowers for
   applications accepted by GUS. For example, while lenders are required to
   maintain supporting documents, they do not provide evidence such as
   employer earning statements that supports borrower income to agency
   officials. This type of evidence is provided when applications are manually
   processed by agency officials. Thus, lenders are able to enter inaccurate
   borrower information into GUS with minimal risk of detection by agency
   officials prior to approving a loan guarantee.


   In response to our recommendations, Rural Development implemented
   additional controls for processing single family guaranteed housing loans
   with Recovery Act funds. For example, effective May 18, 2009, Rural
   Development suspended the use of Recovery Act loan funds for new
   conditional commitment requests so it could revise GUS quality control
   processes currently in place. The agency developed additional quality
   control standards by incorporating a pre-loan closing review of 5 percent of
   GUS submissions for each GUS-approved lender. The agency also plans
   to increase compliance testing conducted after loan closing with a focus on
   GUS loan origination quality. Reviews will concentrate on the participating
   lenders that originate a high volume of GUS loans or that may have certain
   GUS loan performance metrics.


2) Waiver of Debt Ratios


   During our review, we noted that agency policy regarding the waiver of
   debt ratio requirements was unclear and not being administered by field
   staff as expected by national officials. Agency policy states that lenders
   are to submit a request for waivers to debt ratio requirements in writing to
   Rural Development and include documentation of the appropriate
                                                                                10


  compensating factors for support of sound underwriting judgment. Based
  on this policy, agency national officials expected field staff to obtain
  evidence of the compensating factors, such as bank statements for
  instances where the compensating factor was a large savings account.
  However, in the field, we observed that Rural Development staff approved
  lender request for waivers based only on the request and a description of
  the compensating factor. For example, the agency’s guidelines state that
  the ratio of total debt to income should not exceed 41 percent; however,
  we identified a case where this ratio was over 60 percent. Our concern is
  that lenders may create or exaggerate compensating factors to justify
  approving a loan for a substandard borrower.


  In response to our recommendations, Rural Development has stated that it
  will issue additional quality control procedures for its field offices. For
  example, manually underwritten loans with debt ratios above certain
  thresholds will be required to be reviewed by the loan approval official’s
  immediate supervisor. Written supervisory concurrence will be required to
  be retained and/or imaged. Supporting documentation of the
  compensating factors will be required to be retained as part of the
  permanent record.


3) Lenders’ Use of Brokers


  The agency relies on lenders’ underwriting processes to scrutinize loan
  applications originated by brokers. Rural Development guidance states
  that a lender may use agents (i.e., brokers) in carrying out its
  responsibilities. However, lenders are fully responsible for the actions of
  their agents. We are concerned that some lenders will not adequately
  evaluate broker-originated loans before submitting them to Rural
  Development officials. Our concern is based on two factors that, in our
  view, increase the risk that lenders will submit substandard loans to Rural
                                                                               11


  Development. The two factors are (1) the compensation method for
  brokers and (2) the industry practice by which originating lenders typically
  sell loans to other lenders after loan closing. Brokers are compensated for
  each originated loan. (Specific compensation depends on the brokers’
  contracts with the originating lenders and State regulations.) Thus, there
  is an incentive to submit as many loan applications as possible to
  originating lenders to increase the brokers’ income. The agency relies on
  lenders to review information on applications during the underwriting
  process to prevent such abuse. However, those reviews may not always
  be effective because it is a common industry practice for originating
  lenders to sell the loans they make to other lenders for servicing.
  Therefore, some originating lenders may be less willing to dedicate
  resources to scrutinize loans that will be sold to other lenders. In addition,
  the agency generally does not deny loss claims made by servicing lenders
  or seek recourse against originating lenders.


  In response to our recommendations, Rural Development has stated that it
  will increase its compliance testing with a focus on loan origination quality
  for loans originated by brokers. Reviews will concentrate on participating
  lenders that originate a high volume of loans initiated by brokers.


4) Procedures for Reviewing and Approving Applications


  During our visits to four agency field offices, we observed that agency loan
  specialists routinely performed all functions in the loan guarantee process
  with no supervisory review prior to issuance of the guarantee. These
  functions included the review of loan guarantee applications for
  completeness and borrower eligibility, the approval of the application for
  guarantee, and the input of applications into the agency’s system of
  records (GUS) where the obligation of funds will occur. The agency does
  not require a segregation of duties or supervisory (or second party) review
                                                                                       12


          prior to issuance of the loan guarantee. This creates a situation where
          agency loan specialists and other field staff could fail to detect lender
          errors or collude with lending officials to guarantee substandard loans. Of
          greatest concern to us is that agency field staff may not detect lender
          errors and mistakes because of the significant loan volume associated with
          the distribution of Recovery Act funds. In less than two months of
          distributing Recovery Act funds, the agency has already exceeded the
          typical number of guarantees in a year. We are aware that some area
          offices have too few employees to adequately separate duties. For
          instance, one of the four offices we visited had three employees, only one
          of which was a loan specialist. It would be difficult to adequately separate
          duties in that office. However, the other three offices had five employees,
          four of which were loan specialists. Therefore, it would be more feasible to
          separate duties in those circumstances.


          Rural Development did not agree with our recommendation that the
          agency implement segregation of duties in offices where it was feasible
          based on staffing levels to ensure the accuracy of all applications versus
          just a sample. Instead, the agency proposed additional quality control
          procedures to ensure a second party review is taking place on a selection
          of loans approved by Rural Development officials. The agency explained
          that this review will be performed by designated agency employees and
          better ensure loans originated were adequately reviewed for eligibility.
          OIG will continue to assess this issue as we further examine this program.


      D. Work in Process and Planned


As of June 2, 2009, OIG had six Rural Development Recovery Act audits in process
related to guaranteed and direct single family housing, water and waste disposal
loans and grants, community facility loans and grants, business enterprise grants,
and business and industry guaranteed loans. We expect to initiate as many as three
                                                                                         13


additional assignments related to housing before the end of this fiscal year. Our
audit plan for fiscal year 2010 will be developed this summer and put in place by
October 2009. It is likely that the fiscal year 2010 plan will include audits of Rural
Development programs to determine if funding recipients complied with program
requirements and to evaluate agency determinations about the effectiveness of
Recovery Act activities.


This concludes my testimony. I want to thank Chairman McIntyre, Ranking Member
Conaway, and Members of the Subcommittee for the opportunity to present
testimony on behalf of OIG. I would be pleased to address your questions.
